TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                         While the Financial Institution
                        Registration System Deployed on
                      Time, Improved Controls Are Needed



                                     September 30, 2014

                             Reference Number: 2014-20-094




This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
 and information determined to be restricted from public release has been redacted from this document.

Redaction Legend:
2 = Risk Circumvention of Agency Regulation or Statute



Phone Number / 202-622-6500
E-mail Address / TIGTACommunications@tigta.treas.gov
Website        / http://www.treasury.gov/tigta
                                                   HIGHLIGHTS


WHILE THE FINANCIAL INSTITUTION                        signature process is as reliable as is appropriate
REGISTRATION SYSTEM DEPLOYED ON                        for the intended purpose.
TIME, IMPROVED CONTROLS ARE                            WHAT TIGTA FOUND
NEEDED
                                                       The IRS deployed FRS Release 1.1 in
                                                       December 2013 to provide functionality to
Highlights                                             Foreign financial institutions and authorized IRS
                                                       employees. Our review found that the IRS has
Final Report issued on                                 not yet: (1) approved and implemented FRS
September 30, 2014                                     business performance measures; (2) completely
                                                       traced FRS system-specific security
Highlights of Reference Number: 2014-20-094            requirements to security controls, test cases,
to the Internal Revenue Service Chief                  and test results; (3) fully evaluated the risks of
Technology Officer and the Commissioner,               using electronic signatures for registration forms;
Large Business and International (LB&I)                (4) fully documented FRS system access
Division.                                              controls design, implementation, and
                                                       functionality; (5) ***********2**********
IMPACT ON TAXPAYERS                                    ***********************2*******************************
                                                       *****2*********; and (6) integrated an automated
The deployment of the Financial Institution            tool suite to enable effective requirements
Registration System (FRS) supports provisions          management.
of the Foreign Account Tax Compliance Act
(FATCA). Taxpayers meeting the reporting               WHAT TIGTA RECOMMENDED
requirements threshold began reporting their
foreign financial assets on Form 8938,                 The Chief Technology Officer should
Statement of Specified Foreign Financial Assets,       (1) implement business performance measures
beginning with the 2012 Filing Season. Foreign         to quantify the benefits of the IRS’s FRS
financial institutions are required to report to the   investment; (2) completely trace FRS
IRS information about financial accounts that          system-specific security requirements to
exceed certain thresholds held by U.S.                 controls, test cases, and test results to ensure
taxpayers or foreign entities in which U.S.            security requirements are fully tested prior to
taxpayers hold a substantial ownership interest.       deployment; (3) determine whether a particular
Withholding agents will withhold a 30 percent tax      technology and set of procedures for electronic
on taxpayers who fail to properly report specified     signatures as selected are as reliable as is
financial assets related to U.S. investments.          appropriate for the intended purpose;
Expenditures for FRS development totaled               (4) document system access controls in
approximately $16.7 million for Fiscal Year 2011       sufficient detail to permit analysis and testing;
through Fiscal Year 2013. In Fiscal Year 2014,         (5)******************2********************************
funding available for the FATCA Program was            *******************2**************************; and
$46.6 million.                                         (6) apply integrated automated tools to manage
                                                       FATCA systems requirements traceability.
WHY TIGTA DID THE AUDIT                                TIGTA also recommends that the
                                                       Commissioner, LB&I Division, complete a risk
Our objective was to determine whether the IRS         analysis and cost-benefit analysis to assess the
Information Technology organization has                likelihood and cost of not implementing
adequately mitigated systems development risks         enforceable electronic signatures.
for the FRS. TIGTA reviewed risk management
processes, the FRS solution architecture,              The IRS agreed with two recommendations but
Systems Acceptability Testing results, security        disagreed with five recommendations related to
testing results, and access controls implemented       security requirements traceability, electronic
for users of the FRS. TIGTA also assessed IRS          signatures, security access controls, and
actions taken to ensure that the FRS electronic        integrating automated requirements
                                                       management tools.
                                             DEPARTMENT OF THE TREASURY
                                                  WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                          September 30, 2014


 MEMORANDUM FOR CHIEF TECHNOLOGY OFFICER
                COMMISSIONER, LARGE BUSINESS AND INTERNATIONAL
                DIVISION


 FROM:                       Michael E. McKenney
                             Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – While the Financial Institution Registration
                             System Deployed on Time, Improved Controls Are Needed
                             (Audit # 201420013)

 This report presents the results of our review of the Financial Institution Registration System
 (FRS). The overall objective of this review was to determine whether the Internal Revenue
 Service (IRS) Information Technology organization has adequately mitigated systems
 development risks for the Foreign Account Tax Compliance Act FRS. This audit is our
 second review of the IRS’s system development activities for the FRS and is included in our
 Fiscal Year 2014 Annual Audit Plan. Our review addresses the major management challenges
 of Implementing Major Tax Law Changes, Globalization, and Security for Taxpayer Data and
 Employees.
 Management’s complete response to the draft report is included as Appendix V.
 Copies of this report are also being sent to the IRS managers affected by the report
 recommendations. If you have any questions, please contact me or Danny Verneuille, Acting
 Assistant Inspector General for Audit (Security and Information Technology Services).
                                While the Financial Institution Registration System
                                Deployed on Time, Improved Controls Are Needed




                                            Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 9
          Earlier Business Performance Measures Would Strengthen
          the System Development Process ................................................................. Page 9
                    Recommendation 1:........................................................ Page 10

          System-Specific Security Requirements Must Be Traced to
          Test Cases and Test Results to Ensure Secure Deployment ......................... Page 10
                    Recommendation 2:........................................................ Page 12

          Actions Are Needed to Evaluate Risks With Electronic
          Signatures for New Registration Forms ........................................................ Page 13
                    Recommendation 3:........................................................ Page 15

                    Recommendation 4:........................................................ Page 16

          Improvements in System Access Controls Are Needed to
          Ensure Confidentiality and Data Integrity .................................................... Page 16
                    Recommendations 5 and 6: .............................................. Page 18

          Improved Traceability of System Requirements to Testing
          Can Be Achieved Through Available Automated Tools .............................. Page 19
                    Recommendation 7:........................................................ Page 20


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 21
          Appendix II – Major Contributors to This Report ........................................ Page 24
          Appendix III – Report Distribution List ....................................................... Page 25
          Appendix IV – Glossary ............................................................................... Page 26
          Appendix V – Management’s Response to the Draft Report ....................... Page 31
         While the Financial Institution Registration System
         Deployed on Time, Improved Controls Are Needed




                    Abbreviations

FATCA        Foreign Account Tax Compliance Act
FFI          Foreign Financial Institution
FI           Financial Institution
FRS          Financial Institution Registration System
FY           Fiscal Year
GIIN         Global Intermediary Identification Number
IGA          Intergovernmental Agreement
IRS          Internal Revenue Service
IT           Information Technology
LB&I         Large Business and International
NIST         National Institute of Standards and Technology
PII          Personally Identifiable Information
PMO          Program Management Office
ReqPro       Rational RequisitePro
RQM          Rational Quality Management
SAT          Systems Acceptability Testing
SCA          Security Controls Assessment
SP           Special Publication
TIGTA        Treasury Inspector General for Tax Administration
                            While the Financial Institution Registration System
                            Deployed on Time, Improved Controls Are Needed




                                             Background

The Foreign Account Tax Compliance Act (FATCA)1 Program is an important development in
the Internal Revenue Service’s (IRS) efforts to improve U.S. tax compliance involving foreign
financial assets and offshore accounts. In 2010, Congress enacted the FATCA legislation as part
of the Hiring Incentives to Restore Employment Act2 to:
        Combat tax evasion by U.S. persons holding investments in offshore accounts.
        Expand the IRS’s global presence.
        Pursue international tax and financial crimes.
        Fill a gap in the IRS’s information reporting system.
        Generate additional enforcement revenue.
The FATCA legislation directly affects three key groups:
        Taxpayers. Taxpayers meeting the reporting requirements threshold must report their
         foreign financial assets on Form 8938, Statement of Specified Foreign Financial Assets,
         as an attachment to their Federal income tax returns beginning with the 2012 Filing
         Season.3
        Foreign Financial Institutions (FFI). FFIs include any non-U.S. entity that accepts
         deposits, holds financial assets, or engages in the business of investing, including foreign
         banks, foreign branches of U.S. banks, and businesses organized under a foreign law that
         would be a securities broker-dealer if located in the U.S. (e.g., money transmitter,
         currency exchanger). FFIs are required by the FATCA to report to the IRS information
         about financial accounts that exceed certain thresholds held by U.S. taxpayers or foreign
         entities in which U.S. taxpayers hold a substantial ownership interest.
        Withholding Agents. Withholding agents will withhold a 30 percent tax on taxpayers
         who fail to properly report specified financial assets related to U.S. investments.




1
  Pub. L. No. 111-147, Subtitle A, 124 Stat 71, *96-116 (2010) (codified in scattered sections of 26 U.S.C.).
2
  Hiring Incentives to Restore Employment Act (HIRE), Pub. L. No. 111-147, 124 Stat. 71 (2010).
3
  See Appendix IV for a glossary of terms.
                                                                                                                Page 1
                       While the Financial Institution Registration System
                       Deployed on Time, Improved Controls Are Needed



IRS Information Technology (IT) organization Program Management Office (PMO)
governance
Within the IRS’s IT organization, the Enterprise IT PMO is the IRS’s systems integrator to
manage programs based on the Enterprise Life Cycle, ensuring coordination across information
technology delivery partners and business stakeholders for
successful project delivery to production. The Enterprise
                                                              The newly established FATCA IT
IT PMO provides systems integration and has an emphasis       PMO managed the development
on major IRS business systems modernization programs           and deployment of the FRS and
such as the Customer Account Data Engine 2, Modernized           will oversee future FATCA
e-File, the Electronic Fraud Detection System, the Return       systems development efforts.
Review Program, and the FATCA Program.
The FATCA IT PMO was established in January 2014 when the IRS approved the FATCA IT
PMO’s Program Management Plan. This office oversees the design, development, and
deployment of information technology projects to fulfill FATCA Program requirements. In
addition, the FATCA IT PMO coordinates with IRS information technology project development
leads and other IRS information technology delivery partners to manage the funding for FATCA
development projects. Actual expenditures on Financial Institution (FI) Registration System
(FRS) development totaled approximately $16.7 million for Fiscal Year (FY) 2011 through
FY 2013. According to information provided by the IRS in preparing its FY 2015 Budget
Submission to Congress, FY 2014 funding available for the FATCA Program was $46.6 million.
According to the FATCA IT PMO, the IRS will deliver FATCA systems development projects
over a period of at least five years, from the initial development of the FRS in Calendar
Year 2011 to the planned deployment of other FATCA systems in Calendar Year 2015. The
FATCA IT PMO is responsible for designing, developing, and deploying FATCA projects to
meet the IRS’s Large Business and International (LB&I) Division’s business needs. Once these
projects are fully deployed, operations and maintenance duties for the FATCA systems will
transition to other operational units within the IT organization.
Figure 1 provides a timeline of key milestones for the FATCA Program.




                                                                                       Page 2
                            While the Financial Institution Registration System
                            Deployed on Time, Improved Controls Are Needed



                        Figure 1: FATCA Program Deployment Timeline

     Key Dates                                                  Description
                     The IRS began accepting Form 8938. In Calendar Years 2012 and 2013, only U.S. individual
January 01, 2012     taxpayers were required to file Form 8938 and attach it to a Form 1040, U.S. Individual Income
                     Tax Return, or Form 1040NR, U.S. Nonresident Alien Income Tax Return.
                     The Department of the Treasury (Treasury) and the IRS issued final regulations and addressed
January 28, 2013
                     FATCA Intergovernmental Agreements (IGA).
                     The FATCA registration portal opened to the public. Paper registration Forms 8957, Foreign
August 19, 2013
                     Account Tax Compliance Act (FATCA) Registration, can also be used.
                     Each financial institution should have finalized its registration information electronically in the
January 01, 2014
                     FRS or by filing Form 8957 for paper registrations.
                     FFIs and sponsoring entities must complete registration by this date to ensure inclusion on the
    April 25, 2014
                     initial IRS FFI List.
                     The IRS published the initial FFI List, and monthly updates will follow. As of June 30, 2014,
    June 02, 2014    the LB&I Division website reports that 77,000 FFIs have registered to date (includes online and
                     paper, with and without Global Intermediary Identification Numbers (GIIN)).
                     Withholding begins on U.S. payments to FFIs,4 nonfinancial foreign entities, and direct account
    July 01, 2014    holders of participating FFIs using Form 1042, Annual Withholding Tax Return for U.S. Source
                     Income of Foreign Persons.
January 01, 2015     FFI information reporting begins for reporting of Tax Year 2014.
                     FFIs and sponsoring entities in non-IGA and Model 2 IGA countries are to file the first
                     information reports for Tax Year 2014. As of June 30, 2014, Treasury recognizes that 39 IGAs
March 15, 2015       have been signed; another 62 IGAs are under negotiation. Of the total 101 IGAs, 88 are Model 1
                     agreements for which FFIs report to the IRS through their host country taxing authorities. The
                     remaining 13 are Model 2 agreements for which the FFIs report directly to the IRS.
                     FFIs and U.S. withholding agents are to file Form 1042-S, Foreign Person’s U.S. Source
                     Income Subject to Withholding, regarding withholding during Calendar Year 2014.
March 31, 2015
                     U.S. withholding agents may have a reporting obligation with respect to payments made to
                     U.S.-owned nonfinancial foreign entities.
                     Model 1 IGA reporting is due for Tax Year 2014. This includes reporting by host country
    September 30,
                     taxing authorities and reciprocal reporting by the U.S. via the International Data Exchange
        2015
                     Service.
January 31, 2016     The IRS plans to implement a full FATCA compliance program.
Source: IRS LB&I Division FATCA timeline.


4
  If the FFI does not comply with the FATCA rules, beginning in 2014, “withholdable payments” payable to it for
both its own account and on behalf of its customers will be subject to U.S. Federal income tax withholding.
Withholdable payments include items of U.S.-source fixed or determinable, annual or periodical income, such as
interest and dividends, as well as gross proceeds “from the disposition of any property of a type which can produce
interest or dividends from sources within the United States.”
                                                                                                                 Page 3
                             While the Financial Institution Registration System
                             Deployed on Time, Improved Controls Are Needed



Figure 2 shows the multiple FATCA software development projects that the IRS plans to
develop and implement between 2013 and 2015.
                  Figure 2: Key FATCA Software Development Projects

             Project                         Description of Related Steps and Capabilities

                                     Register FFIs and issue a GIIN. Publish the approved IRS FFI List.
FRS
                                     Provides a search and download tool.

Taxpayer Reporting – Form 8938 Provide taxpayers with the ability to update Form 8938 to facilitate
Transcription                  taxpayer reporting.

                                     Facilitate secure electronic submission, receipt, and exchange of
International Data Exchange          FATCA data among financial institutions from many countries;
Service                              service is expected to accommodate an estimated 600,000 FIs,
                                     including FFIs.

International Compliance
                                     Develop database and extract, transform, and load FATCA data.
Management Model

                                     Process and track withholding deposits and associated reporting
Withholding Payment Processing
                                     from U.S. withholding agents and FIs.

                                     Process returns with requests for refunds against withholding
Refund Processing & Fraud
                                     deposits. Implement processes to identify and prevent potential
Detection
                                     refund fraud.

                                     Identify and integrate data elements for compliance case selection
FATCA Compliance Strategy
                                     and case management.
Source: IRS LB&I Division.

Figure 3 depicts the relationship and data integration points between the FATCA software
development projects and information provided by the FFIs, withholding agents, and U.S.
account holders.




                                                                                                   Page 4
                           While the Financial Institution Registration System
                           Deployed on Time, Improved Controls Are Needed



       Figure 3: Relationship Among FATCA Software Development Projects




Source: IRS LB&I Division FATCA conceptual diagram. HCTA = Host Country Taxing Authority.
PFFIs = Participating FFIs.

The FRS
The FRS is intended to register those FFIs electing to comply with the U.S. FATCA legislation
as well as to publish and maintain a list of participating FFIs for use by U.S. holders of overseas
accounts, financial institutions, and other participating FFIs in determining withholding
responsibilities. Figure 4 provides an overview of FRS users and related system functionality.
                                    Figure 4: FATCA FRS Users

        FRS Users                                                 Description

 FFIs                        FFI staff will use the FRS to create, edit, and submit applications for registered FFI
 (Release 1.1 Drop 1)        status and receive notification of approval/disapproval. An FFI can create an account
                             online, submit its FFI registration data, update its FFI account, receive notifications of
                             events concerning registration or account actions, and read the IRS FFI List. The IRS
                             issues GIINs to registered FFIs.

 Authorized IRS Employees    The IRS employees supporting the FFI registration function will use the system to
 (Release 1.1 Drop 2)        enter registration data, modify FFI accounts, run management reports, and extract
                             data on FFIs for analysis.

 External Third Parties      U.S. withholding agents and approved FFIs will need to know whether FFIs are
 (Release 2)                 participating in the FATCA in order to determine if 30 percent withholding should be
                             applied to payments to FFI accounts held or controlled by U.S. persons or entities.
Source: FATCA Iterative Design Specification Report.

                                                                                                              Page 5
                         While the Financial Institution Registration System
                         Deployed on Time, Improved Controls Are Needed



The FRS will provide several functions including user accounts, FFI agreements, and FFI
certifications. The user account function manages user accounts. The FFI agreements function
confirms input data and agreement type as entered by the FFI and ensures that the agreement is
ultimately signed. The FFI certification function ensures that FFIs certify to their status as a
deemed-compliant FFI by providing a withholding agent with the required documentation.
Figure 5 provides an overview of system development activities and milestones for the FRS.
       Figure 5: System Development Activities and Milestones for the FRS

   FRS Development Activities                                                   Date

   System development of the FRS started                                  April 25, 2011

   FATCA regulations issued                                               February 8, 2012

   FATCA IT PMO approved                                                  September 13, 2012

   FRS Release 1.0 terminated                                             November 5, 2012

   FRS Release 1.1 redesigned                                             January 7, 2013

   Final FATCA regulations issued                                         January 28, 2013

   Scope and schedule changes to develop FRS Release 1.1 approved         January 31, 2013

   FRS Release 1.1 Drop 1 deployed                                        July 29, 2013

   FRS Release 1.1 Drop 2 deployed                                        December 9, 2013

   FFIs needed to finalize their registrations                            January 1, 2014

   Form 8957 paper registrations accepted                                 January 1, 2014

   Completed FFI registrations will be included in initial IRS FFI list   April 25, 2014

   GIINs assigned to FFIs                                                 April 25, 2014

   Initial IRS FFI List was published with monthly updates planned        June 2, 2014
  Source: IRS IT organization, FATCA IT PMO, FRS timeline.




                                                                                               Page 6
                          While the Financial Institution Registration System
                          Deployed on Time, Improved Controls Are Needed



FRS architecture
    *******************************2************************
                     **************************************2***********************
 




    *********************************************************************************************
    *********************************************************************************************
    *********************************************************************************************
    *********************************************************************************************
    *********************************************************************************************
    *********************************************************************************************
    *********************************************************************************************
    *********************************************************************************************
******************************************2**************************************************
*********************************************************************************************
*********************************************************************************************
*********************************************************************************************
*********************************************************************************************
*********************************************************************************************
*********************************************************************************************
*********************************************************************************************
*********************************************************************************************
*********************************************************************************************
*********************************************************************************************
*********************************************************************************************
*********************************************************************************************
*********************************************************************************************
*********************************************************************************************
*********************************************************************************************
*********************************************************************************************
*********************************************************************************************


********************************************2************************************************
********************************************2************************************************
********************************************2************************************************
***********************2*******************************.

The IRS terminated FATCA FRS Release 1.0 in November 2012 due to scope changes resulting
from the finalization of proposed FATCA regulations and IGA negotiations. The IRS IT
organization subsequently redesigned and deployed FRS Release 1.1 Drop 1 in July 2013 on
behalf of FATCA’s IRS business owner, the LB&I Division. Drop 1 provided functionality for
FFIs to create an account via the Registered User Portal and submit a completed registration




                                                                                           Page 7
                          While the Financial Institution Registration System
                          Deployed on Time, Improved Controls Are Needed



(Form 8957). The Treasury Inspector General for Tax Administration (TIGTA) previously
reported on systems development for the FRS in 2013.5
This review was performed at the IRS IT organization offices at the New Carrollton Federal
Building in Lanham, Maryland. We obtained information from management and personnel in
the FATCA IT PMO, the Cybersecurity organization, and the LB&I Division offices in Lanham,
Maryland, and in Washington, D.C. The review was performed during the period October 2013
through July 2014. We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the audit to
obtain sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit objectives. Detailed
information on our audit objective, scope, and methodology is presented in Appendix I. Major
contributors to the report are listed in Appendix II.




5
 TIGTA conducted a prior audit of FRS Release 1.1 Drop 1. TIGTA, Ref. No. 2013-20-118, Foreign Account Tax
Compliance Act: Improvements Are Needed to Strengthen Systems Development Controls for the Financial
Institution Registration System (Sept. 2013).
                                                                                                    Page 8
                            While the Financial Institution Registration System
                            Deployed on Time, Improved Controls Are Needed




                                      Results of Review

Earlier Business Performance Measures Would Strengthen the
System Development Process
While the IRS has begun developing business measures for the FRS since our last review, those
measures were not yet in place to guide development for the FRS or before system deployment
in December 2013. The Government Performance and Result Act Modernization Act of 2010
(GPRAMA),6 however, emphasizes the importance of: (1) establishing annual performance
goals to define the level of performance; (2) expressing goals in an objective, quantifiable, and
measurable form; (3) providing a description of how the performance goals are to be achieved;
and (4) establishing a balanced set of performance indicators to be used in measuring or
assessing progress toward each performance goal. These same performance measurement
principles are reflected in IRM 2.16.1, Enterprise Life Cycle Guidance, which states that the
purpose of the Business Solution Architecture Stage is to specify the business system
requirements and structure for a complete solution that implements the system concept and
includes an initial performance engineering model, e.g., measureable objectives.7 This policy
also requires that by the time an IRS system is deployed, a measurement system should be in
place to support assessment of the system’s functional performance to achieve its stated business
needs.8 In addition, for adequate capital planning and investment management, the IRS is
required to monitor capital investments to ascertain that planned quantitative and qualitative
benefits are realized.9
The IRS has employed an incremental delivery approach for FATCA information technology
projects and divided the FRS Project into two production releases, deployed in July and
December 2013 respectively. However, performance measures were not in place for TIGTA’s
consideration during our review of Drop 2. Further, the IRS has not yet implemented
performance goals and measures for FRS Release 1.1, Drop 1. Performance measures are
needed to support assessment of the system’s functional performance to achieve its stated
business needs.
In February 2014, LB&I Division officials informed us that they were working on
five performance measures for the FATCA registration process and the associated FFI List
search and download tool; two measures pertain to the LB&I Division and three pertain to the
FATCA IT PMO. LB&I Division officials explained that a working group has been tasked with

6
  Pub. L. No. 111-352, 124 Stat. 3866 (Jan. 4, 2011).
7
  IRM 2.16.1.2.3.3.5, Business Solution Architecture Stage (Sept. 4, 2010).
8
  IRM 2.16.1.2.3.3.12, Deployment Stage (Aug. 3, 2008).
9
  IRM 2.16.1.2.6.8, Strategy and Capital Planning (Sept. 4, 2010).
                                                                                           Page 9
                        While the Financial Institution Registration System
                        Deployed on Time, Improved Controls Are Needed



fully developing these measures and ensuring that the measures are tracked once the following
three FRS components became operational in June 2014, i.e., registration, publication of the
FFI List, and backend processing to screen applicants to determine if they are on an excluded
country listing.
It has been almost a full year since the first delivery of FRS functionality, and the IRS has not yet
determined expected benefits from this significant information technology investment. Further,
we believe that future FATCA system development efforts would benefit from the earlier
partnering of the LB&I Division with the IRS IT organization to develop and publish
performance measures which will ensure that adequate governance is in place to align
information technology strategy with business strategy and to measure the effectiveness and
efficiency of FATCA information technology investments.

Recommendation
Recommendation 1: The Chief Technology Officer should ensure that the IRS IT
organization and the LB&I Division coordinate to timely develop and implement adequate
business performance measures to quantify net benefits for information technology investments
in support of the FATCA.
       Management Response: The IRS agreed with this recommendation, stating that the
       Commissioner, LB&I Division, is responsible for the business measures for the FATCA
       FRS and has developed these measures. The Chief Technology Officer agreed to
       incorporate these measures in the IRS’s FY 2016 budget submission.
       Office of Audit Comment: Business performance measures are important to measure
       and quantify the net benefits of the IRS’s information technology investment in the
       FATCA FRS. While the IRS reported that it had developed measures for the FATCA
       FRS, these business measures were not made available to TIGTA for review. Although
       the IRS has agreed to incorporate the measures into the FY 2016 budget submission,
       TIGTA believes that the IRS’s corrective actions should focus on implementing business
       performance measures and assessing the system’s performance.

System-Specific Security Requirements Must Be Traced to Test Cases
and Test Results to Ensure Secure Deployment
As a part of the security assessment and authorization process, the IRS Cybersecurity
organization conducted a FATCA FRS event-driven Security Controls Assessment (SCA) prior
to FRS Release 1.1 Drop 2 deployment to ensure that the FRS’s security controls were in place
and functioning as intended. The Cybersecurity organization issued its FRS Security
Assessment Report on November 22, 2013. The event-driven SCA included analysis and testing
of key nontechnical and technical security controls that had changed from FRS Release 1.1
Drop 1 to Release 1.1 Drop 2. The purpose of the event-driven SCA was to ensure that the

                                                                                             Page 10
                           While the Financial Institution Registration System
                           Deployed on Time, Improved Controls Are Needed



FATCA FRS met the established security controls in accordance with National Institute of
Standards and Technology (NIST) Special Publication (SP) 800-53 (NIST SP 800-53),
Revisions 3 and 4.10 The FATCA FRS Application System Security Plan, hereafter referred to as
the System Security Plan, addressed NIST SP 800-53 security controls, and the FATCA SCA
traced NIST security controls to test cases and test results.
NIST SP 800-53 also provides direction for managing Federal information systems using a
system development life cycle methodology that includes information security considerations.
The NIST document is cross-referenced to the International Organization for Standardization’s
guidance on controls pertaining to information systems development and particularly security
requirements analysis and specification. In addition, IRS IRM 2.127.2, Software Testing
Standards and Procedures – IT Software Testing Process and Procedures, provides guidelines
for developing system requirements and requires bidirectionally tracing those requirements to
their sources and test cases, executing the test cases, recording test results, and tracing the test
cases to the test results.11 IRM 10.8.1, Information Technology Security, Policy and Guidance,
also emphasizes integrating security into an IRS-approved systems development life cycle.12
This policy stipulates that: (1) security requirements shall be incorporated into the system
requirements and (2) security requirements shall be tracked, updated, and validated throughout a
system’s life cycle.
NIST SP 800-3713 stresses that security requirements are a subset of the overall functional and
nonfunctional (e.g., quality, assurance) requirements levied on an information system and are
incorporated into the system development life cycle simultaneously with the functional and
nonfunctional requirements. This special publication recognizes that without the early
integration of security requirements, significant expense may be incurred by the organization
later in the life cycle to address security considerations that could have been included in the
initial design. The NIST stresses that when security requirements are considered as an integral
subset of other information system requirements, the resulting system has fewer weaknesses and
deficiencies and, therefore, fewer vulnerabilities that can be exploited in the future. As such,
these actions are needed to ensure that systems, including the FRS, adequately address unique
risks and operate as intended long-term based on established system-specific security
requirements.
While the IRS traced NIST security controls to test cases and test results, it did not trace FRS
system-specific security requirements to security controls, test cases and test results prior to


10
   NIST, NIST SP 800-53 Rev. 3, Information Security: Recommended Security Controls for Federal Information
Systems and Organizations (Aug. 2009). Also, NIST SP 800-53 Rev. 4, Security and Privacy Controls for Federal
Information Systems and Organizations (April 2013) (includes updates as of Jan. 15, 2014).
11
   IRM 2.16.1, Enterprise Life Cycle Guidance (April 25, 2012).
12
   IRM 10.8.1, Information Technology (IT) Security, Policy and Guidance (May 3, 2013).
13
   NIST, NIST SP 800-37, Guide for Applying the Risk Management Framework to Federal Information System
(Feb. 22, 2010).

                                                                                                      Page 11
                        While the Financial Institution Registration System
                        Deployed on Time, Improved Controls Are Needed



deployment. The IRS indicated that while there was no assurance that all FRS security
requirements were tested as part of its security testing, 100 percent of all applicable
NIST SP 800-53 security controls were tested in the SCA before the FRS Project received its
final authorization to operate in November 2013. We believe that if security test case
development, security control traceability, and security testing focuses only on required
NIST SP 800-53 security controls, unique FRS security requirements could go untested. This
could have an adverse impact on FATCA system functionality and operations. Moreover,
verification of system-specific security requirements are needed to mitigate unique risks for
FATCA systems regarding the threat of unauthorized access or modification of Personally
Identifiable Information (PII) and other sensitive data.

Recommendation
Recommendation 2:  The Chief Technology Officer should ensure that system-specific
security requirements are traced to test cases and test cases to test results to ensure the
completeness of FRS security testing. This will also provide assurance that adequate
system-specific security will be in place throughout the life cycle of the FRS.
       Management Response: The IRS disagreed with this recommendation. The IRS
       stated that TIGTA did not provide any FRS-specific security test cases to the IRS as
       examples of this deficiency. Instead, TIGTA presented the recommendation based on a
       one-time initiative taken by the Customer Account Data Engine 2 project wherein every
       NIST security control had been traced in some manner to some type of testing and
       included in the security documentation. This is not a standard practice within the IRS.
       Office of Audit Comment: NIST guidance cites three different types of security
       controls, including system-specific, common, and hybrid controls. System-specific
       security controls are controls that are unique to the application. TIGTA is concerned that
       FATCA FRS’s system-specific security requirements were not sufficiently traced to
       security controls, test cases, and test results; this key system development control is
       needed to ensure that FATCA system-specific security requirements are adequately tested
       prior to deployment. IRS policy requires all system requirements, including security
       requirements, to be traced to test cases and test results. The IRS needs to reassess the
       methodology it uses to implement this policy because its current methodology appears
       incomplete as the IRS only traces security controls to test cases and test results, not
       system-specific security requirements to controls, to test cases, and to test results. Given
       the lack of full traceability of security controls, the IRS cannot be assured that FATCA
       system-specific security requirements are fully tested prior to deployment. The IRS
       management response states that TIGTA did not find any specific examples of this
       control weakness. TIGTA notes that the scope of our system development review did not
       include a detailed analysis or validation of all FRS system requirements, including
       system-specific security requirements. We considered the risk mitigation controls

                                                                                           Page 12
                           While the Financial Institution Registration System
                           Deployed on Time, Improved Controls Are Needed



        applied by the IRS to ensure adequate development and testing of FRS requirements,
        including requirements for security, as required by both IRS policy and by the NIST
        criteria that is referenced in the report.

Actions Are Needed to Evaluate Risks With Electronic Signatures for
New Registration Forms
In January 2014, the IRS FATCA FRS website began allowing FFIs to file Forms 8957
electronically from anywhere in the world without the need to print, complete, and mail paper
forms. As of July 17, 2014, approximately 99 percent of Forms 8957 were filed electronically.
Form 8957 requires users to check an on-screen box and manually key in their name to indicate
their electronic signature; the names are not verified to data on file. TIGTA asked the IRS to
provide its risk analysis assessing whether the FATCA signature process is sufficiently reliable.
The IRS informed us that a risk assessment for using electronic signatures in the FRS had not
been completed during FRS development. During interviews with the FATCA IT PMO,
Enterprise Services function, Solution Engineering function, and LB&I Division representatives,
IRS officials also informed us that neither the LB&I Division nor the FATCA IT PMO have
identified electronic signature requirements for the FRS.
The use of electronic signatures in transactions involving Federal agencies is primarily governed
by one of the following laws: the Government Paperwork Elimination Act14 or the Electronic
Signatures in Global and National Commerce Act.15 The Government Paperwork Elimination
Act requires that, when practicable, Federal agencies use electronic forms, electronic filing, and
electronic signatures to conduct official business with the public by 2003. It further encourages
Federal Government use of a range of electronic signature alternatives.16 The Electronic
Signatures in Global and National Commerce Act, enacted June 30, 2000, facilitates the use of
electronic records and signatures in foreign commerce. In January 2013, a report titled Usage of
Electronic Signature in the Federal Government 17 provided important guidance on the use of
electronic signatures and encouraged adherence to these laws. This guidance pertains to the use
of electronic signatures for legal signing purposes in the context of electronic transactions. A
signature, whether electronic or on paper, is the means by which a person indicates an intent to
associate himself with a document in a manner that has legal significance. Key provisions of the
January 2013 guidance follows.




14
   Pub. L. 105–277 Title XVII.
15
   Pub. L. 106–229, 114 Stat. 464, enacted June 30, 2000, 15 U.S.C. ch. 96.
16
   OMB Circular A-130, Management of Federal Information Resources, Appendix II, Implementation of the
Government Paperwork Elimination Act (Nov. 2000).
17
   Uniform Electronic Transactions Act, approved by the National Conference of Commissioners on Uniform State
Laws on July 23, 1999, adopted by 47 states as of November 2010.
                                                                                                      Page 13
                       While the Financial Institution Registration System
                       Deployed on Time, Improved Controls Are Needed



Electronic Signature Guidance to Federal Agencies:
   1. Determine whether an electronic signature is necessary. The organization should
      determine whether an electronic signature is required or recommended for legally binding
      an individual to the transaction. It is up to the organization to determine the value of any
      particular transaction and what level of security is required to reduce the risk of fraud.
   2. Consider the signing requirements for legally enforceable electronic signatures. It is
      critical that the electronic signature and the associated signing process satisfy all of the
      applicable legal requirements (form of signature, intent to sign, signature must be
      attached to or associated with the electronic record, identify and authenticate the signer,
      and integrity of the signed record).
   3. Conduct risk analysis to assess the likelihood and cost of not implementing enforceable
      electronic signatures. A risk analysis should be conducted to consider the potential
      challenges to the enforceability of an electronic signature. The risk analysis should
      include the likelihood of a successful challenge to the validity of the electronic signature
      and the monetary loss or other adverse impact that will result from a successful challenge
      to the enforceability of the electronic signature. The risk analysis should address
      concerns regarding the enforceability of the resulting signature. Specifically, the risk
      analysis should consider the:
             Risk that an alleged signer, or other interested third party, will be able to
              successfully repudiate the electronic signature, deny that it was made with an
              intent to sign, or challenge the integrity of the signed record.
             Loss, cost, or other impact of such a successful challenge to the enforceability of
              the signed record.
       The risk analysis should reach an overall risk-level determination and be documented.
       The risk-level determination should be used to determine the options available for each of
       the five signature requirements in item 2 above (form of signature, intent to sign,
       signature must be attached to or associated with the electronic record, identify and
       authenticate the signer, and integrity of the signed record).
   4. Decide overall risk-level determination of risk. An overall risk determination of low,
      moderate, or high needs to be decided for the intended purpose of the transactions.
   5. Act on the risk assessment results. The risk-level determination should be used to
      determine the options available for each of the five signature requirements discussed in
      item 2 above. For example, for low- and moderate-risk transactions, any electronic form
      of signature is acceptable (clicking an on-screen button, checking an on-screen box,
      typing one’s name, or using a personal identification number). However, for high-risk
      transactions, the only acceptable electronic form of signature is a cryptographically based
      digital signature.

                                                                                            Page 14
                          While the Financial Institution Registration System
                          Deployed on Time, Improved Controls Are Needed



According to an IRS announcement in January 2013, “The IRS has never established a formal set
of e-signature [electronic signature] standards for the tax industry.”18 Further, the IRS IT
organization has not developed or implemented an enterprise electronic signature solution or a
standardized web-based security solution to identify and authenticate individuals signing tax
forms or registration forms.
IRM 2.16.1 provides for a complete set of business system requirements to include information
system requirements including functional, data, interface, information system, performance, and
operational requirements including information system management and procedural
requirements.19 However, the requirements management steps completed for the FRS did not
address functionality for electronic signatures. These electronic signatures are applied to
Forms 8957 that are implemented with the FRS electronic registration process. Without a
risk-based approach to developing and implementing electronic signatures for the FRS, the IRS
has not yet fully considered and addressed the possibility that FRS users, including FFIs, could:
        Repudiate the electronic signature, i.e., deny checking an on-screen box or signing the
         registration form;
        Deny any intent to sign; or
        Challenge the integrity of the record or signature.
Further, if the IRS cannot enforce the electronic signatures implemented with the FRS, the risk
of monetary loss or other adverse effects could hinder goals for international tax administration
as needed to implement the FATCA.

Recommendations

Recommendation 3:  The Chief Technology Officer should ensure that the FATCA IT PMO
determines whether the particular technology and set of procedures that comprise the signing
process are as reliable as is appropriate for the intended purpose.

         Management Response: The IRS disagreed with this recommendation, stating that
         no business requirements existed to provide an e-Signature capability for the FATCA
         FRS. The Chief Technology Officer delivered the system per business requirements.
         TIGTA was provided with the legal analysis undertaken by the Associate Chief Counsel,
         International, on whether an electronic signature was needed.
         Office of Audit Comment: A documented risk-based analysis is important in
         considering the adequacy of an electronic signature solution for the FRS. The risk

18
   IRS, Internal Revenue Bulletin No. 2013-4, Announcement 2013-8, Recommendations for Proposed e-signature
Standards (Jan. 22, 2013).
19
   IRM 2.16.1.2.3.3.5, Business Solution Architecture Stage (Sept. 4, 2010).
                                                                                                    Page 15
                       While the Financial Institution Registration System
                       Deployed on Time, Improved Controls Are Needed



       analysis should consider the likelihood of a successful challenge to the validity of the
       electronic signature and the monetary loss or other adverse impact from a successful
       challenge to the enforceability of the electronic signature. Although the IRS has
       implemented a “check in the box” signature solution for the FRS, the IRS could not
       provide any evidence that it had evaluated the risks associated with its decisions prior to
       implementing an electronic signature solution. Therefore, TIGTA cannot determine
       whether the particular technology and set of procedures that comprise the signing process
       are as reliable as appropriate for the intended purpose. The Chief Technology Officer
       should monitor the LB&I Division’s completion of the corrective action for
       Recommendation 4 below. If the LB&I Division determines that the electronic signature
       technology and accompanying procedures that comprise the signing process are required,
       then the IRS should revisit the applicability of Recommendation 3 to implement an
       electronic signature capability for the FATCA FRS.
Recommendation 4:  The Commissioner, LB&I Division, should ensure that the
LB&I Division completes a thorough risk analysis and cost-benefit analysis to better assess
the likelihood and cost of not implementing enforceable electronic signatures for the FRS.
       Management Response: The IRS agreed with this recommendation, stating that the
       LB&I Division has provided TIGTA with a report that outlined the decision on Part Four
       of the FATCA FRS regarding the signature. In addition, the LB&I Division is
       completing a risk assessment to document the decision.
       Office of Audit Comment: While the IRS agreed to complete a risk assessment, its
       statement that the risk assessment will be performed to document the decision is
       problematic. The decision should be based on the outcome of the risk assessment, not
       vice versa.

Improvements in System Access Controls Are Needed to Ensure
Confidentiality and Data Integrity
During our review, we found that key security documents did not adequately describe how access
controls were designed and implemented for the FRS. Further,********2**************
*******************************2***************************************. The
following criteria apply to FRS access controls, including authentication and authorization of
system users:
      NIST SP 800-53 requires that the information system uniquely identifies and
       authenticates organizational users (or processes acting on behalf of organizational users).
      NIST SP 800-53 requires that the information system enforces approved authorizations
       for logical access to the system in accordance with applicable policy.



                                                                                           Page 16
                              While the Financial Institution Registration System
                              Deployed on Time, Improved Controls Are Needed



          IRM 10.8.1 requires the developer of the information system to provide:20
             o A description of the functional properties of the security controls to be employed.
               Functional properties of security controls describe the functionality, i.e., the
               security capabilities, functions, or mechanisms visible at the control interfaces.
             o Design and implementation information for the security controls to be employed in
               sufficient detail to permit analysis and testing of the controls, to include
               security-relevant external system interfaces, high-level design, low-level design,
               source code, and hardware schematics.
Our analysis of FRS authentication and authorization controls for external and internal FRS users
is presented in Figure 7.
           Figure 7: Analysis of FRS Authentication and Authorization Controls

                                                    Design & Implementation
Access
Controls                                         Authentication & Authorization
                  *************************************2******************************************
                  *************************************2******************************************
                  *************************************2******************************************
                  ****************************2************The system was developed where:
                    ********************************2********************************************
                     *********************************2*******************************************
                     *************2***************.
External
FRS Users           **********************************2********************************.
                    External users can select their role from four predefined application roles. ***2****
                     ******************************2**********************************.
                    Neither the System Security Plan, the Business Systems Requirements Report, nor the Design
                      Specification Report included sufficient documentation to describe fully the access controls
                      design, implementation, and functionality. Because of the lack of sufficient documentation, we
                      were unable to fully evaluate access controls for external users.
                  ******************************2*************************************************
                  ******************************2***********************************, where:
                    ***************************************2************************.
Internal
FRS Users      Neither the System Security Plan, the Business Systems Requirements Report, nor the Design
                  Specification Report included sufficient documentation to fully describe the access controls
                  design, implementation, and functionality. Because of the lack of sufficient documentation, we
                  were unable to fully evaluate access controls for internal users.  
Source: TIGTA discussions and review of security documentation.



20
     IRM 10.8.1, Information Technology (IT) Security, Policy and Guidance (May 3, 2013).
                                                                                                             Page 17
                       While the Financial Institution Registration System
                       Deployed on Time, Improved Controls Are Needed



The importance of adequate system access controls is well documented in Federal policy and
guidance. NIST SP 800-53 states that a security incident could result in a breach to the
information system, producing a loss of confidence by the organization in the confidentiality,
integrity, or availability of information processed, stored, or transmitted by the system. More
specifically, because FRS security documentation was insufficient and the*****2****
**********************************2*******************, we could not fully evaluate
the adequacy of FRS access controls.

Recommendations
Recommendation 5:  The Chief Technology Officer should ensure that the developer
provides design and implementation documentation for the system security access controls in
sufficient detail to permit analysis and testing of the controls.
       Management Response: The IRS disagreed with this recommendation, stating that
       the FRS is fully documented in the approved Design Specification Report. ***2***is
       appropriately referenced as part of the design, but a detailed design for this tool is not
       required as part of the Design Specification Report. The IRS also notes that the FRS was
       designed and developed by a fully integrated team of IRS and contractor personnel
       managed by IRS leadership.
       Office of Audit Comment: Security documentation in sufficient detail to enable
       analysis and testing of security controls is required for the FRS. Although the Design
       Specification Report references***2***, it does not provide sufficient detailed
       information on how to facilitate internal users’ access controls. More critically, there is
       an absence of documentation for the**************2************************
       **********************2*******************************.
Recommendation 6:  The Chief Technology Officer should mitigate the risks associated with
using*******************************2*****************************************
**********2***********.
       Management Response: The IRS disagreed with this recommendation, stating that it
       followed the process established at the time. **********2******************
       ******************************2*****************************************
       **********************2*************************As part of the IRS’s normal
       infrastructure review, a later version of the framework will be considered.
       Office of Audit Comment: **************2*************************
       *********************************2**************************************
       ***************************2***************************************.
       TIGTA maintains that this risk requires definitive corrective actions to ensure adequate
       system security for the FRS. *******************************2********


                                                                                            Page 18
                          While the Financial Institution Registration System
                          Deployed on Time, Improved Controls Are Needed



       **********************************2*************************************
       *********2********************.

Improved Traceability of System Requirements to Testing Can Be
Achieved Through Available Automated Tools

According to IRM 2.16.1, requirements management requires end-to-end traceability from
customer needs, to requirements, to logical design, to physical design , to test cases, and to test
results to verify that demonstrated functionality is consistent with required functionality.
The Rational RequisitePro (ReqPro) automated tool is the IRS’s Enterprise Architecture standard
for requirements management during system development . The IBM Rational Quality Manager
(RQM) automated tool is the IRS’s Enterprise Architecture standard for test case management
during systems development. For FRS Release 1.1, ReqPro was used to generate a
Requirements Traceability Verification Matrix to record and track requirements from inception
through Systems Acceptability Testing (SAT) of the requirements. SAT management stated that
they do not currently use full automation afforded by the Rational Tools Suite to integrate
ReqPro with RQM for the FRS. Regarding the use of RQM for the FATCA, SAT management
stated that they are moving away from the use of manual spreadsheets to implementing
requirements in RQM, which will allow better traceability in the future. FATCA Program, FRS
Project, and stakeholder personnel should fully use ReqPro and RQM to maintain bidirectional
traceability from requirements to test cases to test results and thereby ensure that all requirements
are fully tested prior to deployment. Figure 8 shows an overview provided to TIGTA on how
these automated tools are used during IRS systems development processes.
                         Figure 8: IRS Requirements Management and
                              Test Management Automated Tools

                            Enterprise Architecture
    Current Tool(s)                                                           IRS Usage
                            Recommended Standard
   ReqPro                 Rational Requirements Composer      Create requirements and business rules
   Rational ClearCase,                                        Track defects for testing and development
                          Rational Team Concert
   Rational ClearQuest                                        and allow traceability
                                                              Manage requirements and test cases, and
   RQM                    RQM
                                                              provide defect reporting
                                                              Produce the Requirements Traceability
   Rational Insight       Rational Insight
                                                              Verification Matrix and create dashboards

   Rational System        Rational System Architect           Create business process models and provide
   Architect              System Architect Web Client         bidirectional traceability

 Source: IRS Rational Tools Integration Overview and Next Steps, December 6, 2013.

                                                                                                        Page 19
                        While the Financial Institution Registration System
                        Deployed on Time, Improved Controls Are Needed



In March 2013, to implement complete requirements traceability, the IRS initiated a tools
assessment to determine how to fully integrate and leverage the IRS’s investment in IBM’s
Rational Tools Suite. The assessment identified the following benefits:
      Complete traceability from requirements to test cases to test results.
      Improved visibility into project status and performance through customizable dashboards
       at the individual, project, and program level.
      Integrated logical repository linking components to business architecture, design, and
       operations enabling for synchronization across artifacts.
      Enhanced team collaboration capabilities.
      Standardization across the enterprise to provide an established set of uniform standards,
       processes, and artifacts.
On November 18, 2013, the Associate Chief Information Officer, Enterprise Services, agreed to
take ownership of the Rational Tools Suite and governance process and identified the following
next steps:
      Establish governance and tool ownership processes.
      Drive Rational Tools Suite adoption.
      Define the Rational Tools Implementation Toolkit to meet the needs of simultaneous
       adoption for the enterprise.
      Build and deploy a Rational Tools Implementation Toolkit.

Recommendation
Recommendation 7:  The Chief Technology Officer should ensure that a standard suite of
integrated, automated tools is implemented to manage future FATCA system requirements, test
cases, and bidirectional traceability.
       Management Response: The IRS disagreed with this recommendation, stating that
       the FRS was developed using the most current set of integrated, automated tools
       available, which are still the current standard. At such time when newer tools become
       available, the FRS will migrate to those along with the rest of the IT organization.
       Office of Audit Comment: TIGTA recommends that the FATCA IT PMO take the
       initiative to fully implement the most effective and efficient tools currently available to
       ensure complete FATCA requirements traceability. Complete requirements traceability
       for FATCA systems is needed to ensure successful requirements management, that the
       systems meet required functionality, and that IRS business needs are adequately
       addressed.

                                                                                            Page 20
                              While the Financial Institution Registration System
                              Deployed on Time, Improved Controls Are Needed



                                                                                       Appendix I

            Detailed Objective, Scope, and Methodology

Our overall objective was to determine whether the IRS has adequately mitigated system
development risks for the FRS Project. To accomplish our objective, we performed the
following procedures:
I.         Determined the effectiveness of risk management controls in place for the FATCA
           Program and the FRS Project, including system and Enterprise Architectures, budget
           provisions, system or project requirements1 management processes, performance
           measures and milestones, system development life cycle, and other applicable IRM
           guidance.
           A. To obtain an understanding of the FRS as deployed, requested that the IRS provide a
              demonstration of the FRS that was deployed on December 9, 2013.
           B. Ensured that FATCA risks are properly identified, monitored, and mitigated in
              accordance with applicable guidance.
           C. Reviewed the FATCA Program and FRS Project Enterprise Architecture and
              determined whether the IRS plans to or has implemented technologies pertaining to
              electronic signatures or digital signatures and complied with guidance to Federal
              Agencies.
           D. Inquired and documented the IRS’s funding strategy for the FATCA Program. We
              documented approved funding and actual expenditures for the FATCA Program for
              Fiscal Years 2011–2014.
           E. Obtained, reviewed, and evaluated FATCA Program and FRS Project defined
              business performance measures for information technology systems that relate to
              legislative responsibilities and goals for improving tax administration. We
              ascertained if measures are being monitored and achieved.
           F. Obtained an understanding of tools that the IRS IT organization is using to design,
              develop, test, and deploy the FATCA system. This information will be used for
              future audit planning purposes.
           G. Developed a timeline to identify key legislative, regulatory, and business drivers for
              the system. We also included key milestones and deadlines that affect systems
              development. We documented the size of the FFI population and number of IGAs.


1
    See Appendix IV for a glossary of terms.
                                                                                              Page 21
                           While the Financial Institution Registration System
                           Deployed on Time, Improved Controls Are Needed



II.     Determined whether SAT of FRS Release 1.1 was performed in accordance with
        established IRS testing guidelines and evaluate test plan documentation and test results
        for the project.
III.    Determined whether required system security requirements are guiding the FRS Project.
        We ensured that security testing was adequately planned and executed and considered the
        status of project responses for possible failed test cases.
        A. Reviewed security guidelines including IRM 10.8.12 and NIST SP 800-53.3
        B. Compared the controls in the FRS System Security Plan to the required FATCA
           moderate category security controls contained in NIST SP 800-53 to ensure that the
           required NIST security controls have been incorporated into the FATCA systems.4
           For any required NIST moderate security controls that were not included in the
           System Security Plan, we discussed the controls with the Cybersecurity organization
           to assess the potential impact of not including the controls.
        C. Obtained and reviewed the System Security Plan to identify the security controls that
           should be designed into the FATCA Program. We ensured that the IRS has traced
           security requirements to security controls to security test cases and results.
        D. For security controls in the System Security Plan, identified controls with an
           implementation status of partially in place or not in place. We determined if these
           security controls were properly resolved prior to deployment.
        E. Determined if an authorization to operate was approved by an appropriate official for
           the FRS Project as deployed to date; the authorization to operate should be dated prior
           to deployment.
        F. Determined that adequate security controls have been implemented to protect the FRS
           database by reviewing authentication and authorization of internal and external users.
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined that the
following internal controls were relevant to our audit objective: the IRM and related IRS and

2
  IRM 10.8.1, Information Technology (IT) Security, Policy and Guidance (Dec. 23, 2013).
3
  NIST, NIST SP 800-53 Rev. 3, Information Security: Recommended Security Controls for Federal Information
Systems and Organizations (Aug. 2009). Also, NIST SP 800-53 Rev. 4, Security and Privacy Controls for Federal
Information Systems and Organizations (April 2013) (includes updates as of Jan. 15, 2014).
4
  The IRS has rated the FRS in the moderate category per NIST guidelines. The moderate security categorization
describes the potential adverse impacts to IRS operations, assets, and individuals should the information and
information system be compromised through a loss of confidentiality, integrity, or availability.
                                                                                                       Page 22
                       While the Financial Institution Registration System
                       Deployed on Time, Improved Controls Are Needed



Federal Government guidelines and the processes followed in the development of information
technology projects. We evaluated these controls by conducting interviews with management
and staff, observing testing activities, and reviewing documentation. Documents reviewed
included the FATCA IT PMO Program Management Plan, the FATCA IT PMO Risk
Management Plan, and other documents that provided evidence of the extent to which the IRS is
adequately managing systems development risks for the FATCA Program.




                                                                                      Page 23
                       While the Financial Institution Registration System
                       Deployed on Time, Improved Controls Are Needed



                                                                              Appendix II

                 Major Contributors to This Report

Alan Duncan, Assistant Inspector General for Audit (Security and Information Technology
Services)
Danny Verneuille, Acting Assistant Inspector General for Audit (Security and Information
Technology Services)
Gwendolyn McGowan, Director
Carol Taylor, Audit Manager
Mark Carder, Lead Auditor
Hung Dam, Information Technology Specialist
Kevin Liu, Technical Audit Group Manager
Sylvia Sloan-Copeland, Senior Auditor
Lynn Ross, Senior Auditor
Larry Reimer, Information Technology Specialist




                                                                                       Page 24
                     While the Financial Institution Registration System
                     Deployed on Time, Improved Controls Are Needed



                                                                       Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Large Business and International Division SE:LB
Deputy Commissioner (International) Executive Assistant SE:LB:IN
Deputy Chief Information Officer for Operations OS:CTO
Director, Privacy, Governmental Liaison and Disclosure OS:P
Associate CIO, Applications Development OS:CTO:AD
Associate CIO, Cybersecurity OS:CTO:C
Associate CIO, EIT PMO OS:CTO:EI MP
Director, Risk Management Division OS:CTO:SP:RM
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Director, Risk Management Division OS:CTO:SP:RM




                                                                             Page 25
                    While the Financial Institution Registration System
                    Deployed on Time, Improved Controls Are Needed



                                                                                    Appendix IV

                                       Glossary

Term               Definition
Application        In information technology, the use of a technology, system, or product.

Artifact           One of many kinds of tangible by-products produced during the development of
                   software. Some artifacts help describe the function, architecture, and design of
                   software. Other artifacts are concerned with the process of development itself—
                   such as project plans, business cases, and risk assessments. In connection with
                   software development, artifacts are largely associated with specific development
                   methods or processes.

Bidirectional      Bidirectional traceability of requirements can be established from the source
Traceability       requirement to its lower level requirements and from the lower level requirements
                   back to their source. Such bidirectional traceability helps determine that all source
                   requirements have been completely addressed and that all lower level requirements
                   can be traced to a valid source. Also, once test cases are developed for associated
                   requirements, bidirectional traceability enables requirements to trace to test cases
                   and test cases to trace to requirements.
Business Objects   A broad category of business processes that are modeled as objects. A business
                   object can be as large as an entire order processing system or a small process
                   within an information system.

Business Systems   This report documents a feasible, quantified, verifiable set of requirements that
Requirements       define and bound the business system or subsystem(s) being developed or
Report             enhanced by the project.

Customer Account   The technology foundation that will provide the IRS with the capability to manage
Data Engine        its tax accounts in a way that is central to the achievement of the IRS’s
                   modernization vision. This system’s goal is to create current, complete, and
                   accurate authoritative data stores and construct the related tax administration
                   systems processes.

Design             Documents the logical and physical design of a proposed solution from all
Specification      applicable perspectives. The Design Specification Report is created in the
Report             Preliminary Design phase (Milestone 3) and is updated with physical design details
                   during the Detailed Design phase (Milestone 4A).




                                                                                              Page 26
                     While the Financial Institution Registration System
                     Deployed on Time, Improved Controls Are Needed



Term                Definition
Digital Signature   Encrypted data produced by a mathematical process applied to a record using a
                    hash algorithm and public key cryptography. The encrypted data are such that a
                    person having the initial record and the public key that allegedly corresponds to the
                    private key used to create the encrypted data can accurately determine: (1) whether
                    the encrypted data were created using the private key that corresponds to such
                    public key and (2) whether the initial message has been altered since the encrypted
                    data were created. The encrypted data constituting the digital signature are
                    sometimes used as an electronic signature, are sometimes used as part of a process
                    to authenticate a person or device, and are sometimes used to verify the integrity of
                    the record.

Electronic Fraud    The primary application used by the Wage and Investment Division’s Return
Detection System    Integrity and Correspondence Services to process revenue protection activities.

Employee User       IRS portal that allows IRS employee users to access IRS data and systems, such as
Portal              tax administration processing systems, financial information systems, and other
                    data and applications, including mission-critical applications. Modernization
                    registration and authentication are required for access to sensitive and
                    mission-critical applications, and all user interactions with those systems are
                    encrypted from workstation to portal across the IRS internal network. It allows IRS
                    employee users with local area network accounts (Windows Network Login) to
                    access Intranet sites, selected applications, nonsensitive data, and selected sensitive
                    processing for which network encryption and modernization logon are not required
                    (e.g., employee access to selected elements of their own personnel data). IRS
                    network authentication is a basic requirement for access to any materials or services
                    and is also required to access modernization registration and authentication.
Enterprise          A unifying overall design or structure for an enterprise that includes business and
Architecture        organizational aspects of the enterprise as well as technology aspects. Enterprise
                    Architecture divides the enterprise into its component parts and relationships and
                    provides the principles, constraints, and standards to help align business area
                    development efforts in a common direction. An Enterprise Architecture ensures
                    that subordinate architectures and business system components developed within
                    particular business areas and multiple projects fit together into a consistent,
                    integrated whole.
Filing Season       The period from January through mid-April when most individual income tax
                    returns are filed.
Financial           Any foreign financial business or entity (e.g., banks, hedge funds), in which a U.S.
Institution (FI)    taxpayer may hold an account or financial/ownership interest, that may attempt to
                    enter into an agreement with the IRS under the FATCA to become an approved FI.




                                                                                                Page 27
                      While the Financial Institution Registration System
                      Deployed on Time, Improved Controls Are Needed



Term                 Definition
Foreign Financial    FFIs include any non-U.S. entity that accepts deposits, holds financial assets, or
Institution (FFI)    engages in the business of investing. This includes foreign banks, foreign branches
                     of U.S. banks, and businesses organized under a foreign law that would be a
                     securities broker-dealer if located in the U.S., e.g., money transmitter, currency
                     exchanger.
Global               An identification number that is assigned to a participating FFI or a registered
Intermediary         deemed-compliant FFI after its FATCA registration is submitted and approved.
Identification
Number (GIIN)
Integrated           The new platform for all portal applications. It represents a multiyear upgrade to
Enterprise Portal    the entire online portal infrastructure. It is also the first instance of an innovative,
                     managed service, providing an external private cloud infrastructure.
Intergovernmental    A U.S. Department of the Treasury agreement with foreign governments (countries)
Agreement (IGA)      to implement the information reporting and tax withholding provisions of the
                     FATCA via an automatic exchange of information. IGAs generally allow for
                     government-to-government reporting of the information and address privacy laws
                     and the disclosure of account holder information. Model 1 agreements require FFIs
                     to report to the IRS through their host country taxing authorities. Model 2
                     agreements require FFIs to report directly to the IRS.
International        International Organization for Standardization is an independent, nongovernmental
Organization for     membership organization and the world’s largest developer of voluntary
Standardization      international standards.

*******2******       ***************************2**************************************
                     ***************************2**************************************
                     *******************2*******************
Large Business and   The LB&I Division serves corporations, subchapter S corporations, and
International        partnerships with assets greater than $10 million. These entities typically have
(LB&I) Division      large numbers of employees, deal with complicated issues involving tax law and
                     accounting principles, and conduct their operations in an expanding global
                     environment.
Modernized e-File    Modernized e-File receives and processes e-file returns in an Internet environment.
                     Many returns are received through the Registered User Portal using a component
                     called the Internet Filing Application. Modernized e-File provides for real-time
                     processing of acknowledgements, streamlined error detection, standardization of
                     business rules and requirements across form types, the capability to attach portable
                     document format files, and the capability for IRS employees to view return data
                     through the Employee User Portal and the Business Objects Server.


                                                                                                    Page 28
                      While the Financial Institution Registration System
                      Deployed on Time, Improved Controls Are Needed



Term                 Definition
National Institute   A nonregulatory Federal agency, within the Department of Commerce, responsible
of Standards and     for developing standards and guidelines, including minimum requirements, for
Technology (NIST)    providing adequate information security for all Federal Government agency
                     operations and assets.
Nonfinancial         Nonfinancial foreign entities are considered small, unsophisticated investment
Foreign Entities     entities like family trusts unless they are professionally managed. If professionally
                     managed, these entities are considered FFIs, but the expectation is that the manager
                     (also now deemed to be an FFI) will complete FATCA reporting.
Open Source          In production and development, a development model that promotes a universal
                     access via free license to a product’s design or blueprint, and universal
                     redistribution of that design or blueprint, including subsequent improvements to it
                     by anyone.
Participating FFI    A participating FFI will enter into a registration agreement with the IRS to identify
                     U.S. accounts, report certain information to the IRS regarding U.S. accounts, and
                     withhold a 30 percent tax on certain U.S. payments to nonparticipating FFIs and
                     account holders who are unwilling to provide the required information.
Personally           PII is information that, either alone or in combination with other information, can
Identifiable         be used to uniquely identify an individual. Some examples of PII are name, Social
Information (PII)    Security Number, date of birth, place of birth, address, and biometric records.

Public User Portal   The Public User Portal (formerly the Digital Daily) is the IRS external or Internet
                     portal that allows unrestricted public access to nonsensitive materials and
                     applications, including forms, instructions, news, and tax calculators. No
                     authentication is required for access to any materials on the Public User Portal.
Registered User      The IRS external portal that allows registered individuals and third-party users
Portal               (registration and login authentication required) and other individual taxpayers or
                     their representatives (self-authentication with shared secrets required) to access the
                     IRS for interaction with selected tax processing and other sensitive systems,
                     applications, and data. User interactions are encrypted from the user’s workstation
                     or system to the portal, across the Internet or via direct circuits. The Registered
                     User Portal, via the Common Communication Gateway, also supports IRS
                     extranets, such as the exchange of bulk files of information with the IRS and the
                     Virtual Private Network (both inbound and outbound) by registered and authorized
                     external entities
Requirement          A formalization of a need that is the statement of a capability or condition that a
                     system, subsystem, or system component must have or meet to satisfy a contract,
                     standard, or specification.



                                                                                                 Page 29
                       While the Financial Institution Registration System
                       Deployed on Time, Improved Controls Are Needed



Term                  Definition
Requirements          A tool that documents requirements and establishes the traceability relationships
Traceability          between the requirements to be tested and their associated test cases and test
Verification Matrix   results.

Return Review         The Return Review Program is a new integrated system that adds to the IRS’s
Program               capability to detect, resolve, and prevent criminal and civil tax noncompliance and
                      fraud.
Security Controls     An SCA is conducted in the IRS production environment and consists of activities
Assessment (SCA)      designed to ensure that the system’s security safeguards are in place and
                      functioning as intended.
*****2******          ***************************2**************************************
                      ***************************2**************************************
                      ***************************2**************************************
                      ***************************2**************************************
                      ***************************2**************************************
                      ************2**************
Sponsoring Entity     A sponsoring entity is an entity that will perform the due diligence, withholding,
                      and reporting obligations of one or more sponsored investment entities or
                      controlled foreign corporations.
Systems               A SAT verifies that the system satisfies software application requirements.
Acceptability Test
(SAT)
Withholding Agent     A withholding agent is a U.S. or foreign person that has control, receipt, custody,
                      disposal, or payment of any item of income of a foreign person that is subject to
                      withholding. A withholding agent may be an individual, corporation, partnership,
                      trust, association, or any other entity, including any foreign intermediary, foreign
                      partnership, or U.S. branch of certain foreign banks and insurance companies.




                                                                                                 Page 30
                                 While the Financial Institution Registration System
                                 Deployed on Time, Improved Controls Are Needed



                                                                                                              Appendix V

           Management’s Response to the Draft Report

                                               DEPARTMENT OF THE TREASURY
                                                INTERNAL REVENUE SERVICE
                                                  WASHINGTON, D.C. 20224

CHIEF TECHNOLOGY OFFICER




                                                        September 8, 2014



MEMORANDUM FOR DEPUTY INSPECTOR GENERAL FOR_AUDIT

FROM:                       Terence V. Milholland /s/ Terence V. Milholland
                            Chief Technology Officer

SUBJECT:                    While the Foreign Financial Institution Registration System Deployed on Time, Improved Controls
                            Are Needed (Audit 201420013) (e-trak #2014-58575)

Thank you for the opportunity to review your draft audit report and to discuss earlier draft report observations with the audit
team. We appreciate TIGTA noting the timely delivery of the FATCA FI Registration System in your report.

With regard to your recommendations, we disagree with TIGTA's conclusions in the areas of performance measures, electronic
signature, security-specific requirements, security access controls, ****2*****, and assurance that a standard suite of integrated,
automated tools is implemented to manage future FATCA system requirements, test cases, and bidirectional traceability.

Performance Measures

Business performance measures for the FATCA FI Registration System are not the responsibility of the Chief Technology
Officer. The Commissioner, Large Business and International, has developed business performance measures for the FATCA FI
Registration System. The Chief Technology Officer will incorporate these measures into the Exhibit 300 for inclusion in the FY
2016 budget submission.

Security-Specific Requirements

Throughout the development lifecycle of the FATCA FI Registration System the appropriate system-specific security testing was
conducted, as sanctioned by the Information Technology (IT) Cyber Security organization and governed by the IRS Information
Technology (IT) Security, Policy and Guidance, IRM 10.8.1. As required by IRM 10.8.1.4.15.2 SA-3 System Development Life
Cycle (SDLC), FATCA FI Registration System was developed and tested via the IRS - approved SDLC method- the IRS
Enterprise Life Cycle (ELC).

During Release 1.1 Drop 1, the FATCA FI Registration System went through Security Accreditation and Authorization (SA&A)
and completely tested those security controls necessary to achieve an Interim Authority to Operate. During Release 1.1 Drop 2,
the FATCA FI Registration System went through an ED-SCA (Event-Driven Security Control Audit) to capture



                                                                                                                          Page 31
                                While the Financial Institution Registration System
                                Deployed on Time, Improved Controls Are Needed




and fully test those features and functions not previously tested during the initial SA&A. An Authority to Operate (ATO) was
issued in November 2013, prior to the go-live date of December 9, 2013. In addition, throughout the Development Lifecycle, test
cases relating to specific areas that tie back to security requirements, such as those governing the Access Code and FATCA ID
generation, were fully tested and documented within the FATCA FI Registration System Requisite Pro repository.

As IRS followed the standard practice necessary to obtain Cybersecurity authorization to operate the FATCA FI Registration
System, and as TIGTA did not find any specific examples related to FATCA FI Registration System where security testing was
deficient, we do not agree with this recommendation.

Use of Electronic Signature

During the course of the audit, IRS discussed with TIGTA that there were no requirements for e- Signature given to IT by the
business. The Chief Technology Officer timely delivered the system per business requirements.

Security Access Controls

TIGTA asserts that contractors have maintained all information regarding the source of design and implementation of security in
a proprietary fashion such that the IRS has no access to or knowledge of such information. This is both inaccurate and
misleading and leads to the inaccurate conclusion that there is potential security vulnerability in the design of the FRS based on
such proprietary knowledge.

A secondary issue with the recommendation is that TIGTA holds the FATCA PMO responsible for fully documenting the
authentication and access control capabilities for ***2***, a tool used by the application. IRS disagrees that the FATCA FI
Registration System documentation should contain detailed design information for ***2***. ***2*** is a common use service
within IRS that is leveraged by many applications including the FATCA FI Registration System. IRS fully tested all access
controls that were integrated with ***2*** to ensure the roles-based accesses were working as designed. These tests are fully
documented within the Requisite Pro repository, and traced to requirements and results.

**********2*********

The version of ************2********used to create the access controls and authentication for the external users of the
Financial Institution Registration System was the most current version available at the time. As part of Information Technology's
normal infrastructure review process, we will consider a newer version of the Framework, if approved for use on IRS systems.

Standard Suite of Integrated Tools




                                                                                                                         Page 32
                                While the Financial Institution Registration System
                                Deployed on Time, Improved Controls Are Needed




We disagree that the Chief Technology Officer should specifically ensure that a standard suite of integrated, automated tools is
implemented to manage future FATCA system requirements, test cases, and bidirectional traceability. FATCA FI Registration
System completely documented system requirements and traceability using the existing suite of IRS approved tools. This
recommendation has already been addressed in other audit reports, and IRS is responding to this recommendation at the
Enterprise level.

We are committed to continuously improving IRS information technology systems and processes. We value your continued
support, and the assistance and guidance your team provides. Our corrective action plan for the recommendations is attached. If
you have any questions, please contact me at (202) 317-5000, or a member of your staff may contact Lisa Starr, Program
Oversight Manager Coordination Manager, at (240) 613-4219.


Attachment




                                                                                                                         Page 33
                                 While the Financial Institution Registration System
                                 Deployed on Time, Improved Controls Are Needed




RECOMMENDATION #1: The Chief Technology Officer should ensure that the IRS Information Technology organization
and the LB&I Division coordinate to timely develop and implement adequate business performance measures to quantify net
benefits for information technology investments in support of the FATCA.

CORRECTIVE ACTION #1: The Commissioner, Large Business and International, is responsible for the business measures
for the FATCA FI Registration System and has developed these measures. The Chief Technology Officer will incorporate these
measures in the OMB Exhibit 300 for the IRS’s FY 2016 budget submission.

IMPLEMENTATION DATE: January 25, 2015

RESPONSIBLE OFFICIAL: Deputy Commissioner (International), Large Business and International

CORRECTIVE ACTION MONITORING PLAN: We enter accepted Corrective Actions into the Joint Audit Management
Enterprise System (JAMES). These Corrective Actions are monitored on a monthly basis until completion.

RECOMMENDATION #2: The Chief Technology Officer should ensure that system-specific security requirements are traced
to test cases, and test cases to test results to ensure the completeness of Financial Institution Registration System security testing.
This will also provide assurance that adequate system-specific security will be in place throughout the lifecycle of the FRS.

CORRECTIVE ACTION #2: The IRS disagrees with this recommendation. There were no specific findings from this audit
related to any specific test cases as documented within the Financial Institution Registration System Requisite Pro repository that
were presented to the IRS as examples of a deficiency. Instead, TIGTA presented the recommendation based on a one-time
initiative taken by the CADE2 project wherein every NIST Security Control had been traced in some manner to some type of
testing and included in the CADE2 security documentation. This is not a standard practice within IRS.

IMPLEMENTATION DATE: N/A

RESPONSIBLE OFFICIAL: N/A

CORRECTIVE ACTION MONITORING PLAN: N/A

RECOMMENDATION #3: The Chief Technology Officer should ensure that the FATCA IT PMO determines whether the
particular technology and set of procedures that comprise the signing process are as reliable as is appropriate for the intended
purpose.

CORRECTIVE ACTION #3: No business requirements existed to provide an e-Signature capability for the FATCA FI
Registration System. The Chief Technology Officer delivered the system per business requirements. TIGTA was provided with
the legal analysis undertaken by the Associate Chief Counsel (International) on whether an electronic signature was needed.




                                                                                                                             Page 34
                                While the Financial Institution Registration System
                                Deployed on Time, Improved Controls Are Needed




IMPLEMENTATION DATE: N/A

RESPONSIBLE OFFICIAL: N/A

CORRECTIVE ACTION MONITORING PLAN: N/A

RECOMMENDATION #4: The Commissioner, LB&I Division, should ensure that the LB&I Division completes a thorough
risk analysis and cost-benefit analysis to better assess the likelihood and cost of not implementing enforceable electronic
signatures for the FRS.

CORRECTIVE ACTION #4: LB&I has provided TIGTA with a report that outlined the decision on Part Four of the FATCA
registration system regarding the signature. In addition, we are completing a risk assessment to document the decision.

IMPLEMENTATION DATE: October 25, 2014

RESPONSIBLE OFFICIAL: Deputy Commissioner (International), Large Business and
International Division

CORRECTIVE ACTION MONITORING PLAN: We enter accepted Corrective Actions into the Joint Audit Management
Enterprise System (JAMES). These Corrective Actions are monitored on a monthly basis until completion.

RECOMMENDATION #5: The Chief Technology Officer should ensure that the developer provides design and
implementation documentation for the system security access controls in sufficient detail to permit analysis and testing of the
controls.

CORRECTIVE ACTION #5: The IRS disagrees with this recommendation. The application is fully documented in an
approved Design Specification Report (DSR). ***2***is appropriately referenced as part of the design, but a detailed design for
this tool is not required as part of the application DSR.

Additionally, in a previous response to a draft version of this Audit Report, TIGTA was requested to remove all reference to “the
contractor” as it related to “the developer” and any inferences that the FATCA FI Registration System was developed solely by
an outside organization. The Financial Institution Registration System was designed and developed by a fully integrated team of
IRS and Contractor personnel managed by IRS leadership.

IMPLEMENTATION DATE: N/A

RESPONSIBLE OFFICIAL: N/A

CORRECTIVE ACTION MONITORING PLAN: N/A

RECOMMENDATION #6: The Chief Technology Officer should mitigate the risks associated with using an
***********************2********************************.




                                                                                                                         Page 35
                               While the Financial Institution Registration System
                               Deployed on Time, Improved Controls Are Needed




CORRECTIVE ACTION #6: The IRS disagrees with this recommendation. IRS followed the process established at the time.
The version of **********2*****************************************************************************
*********************************2*******************************************************************
****************************************2*********************. As part of our normal infrastructure review, a later
version of the Framework will be considered.

IMPLEMENTATION DATE: N/A

RESPONSIBILE OFFICIAL: N/A

CORRECTIVE ACTION MONITORING PLAN: N/A

RECOMMENDATION #7: The Chief Technology Officer should ensure that a standard suite of integrated, automated tools is
implemented to manage future FATCA system requirements, test cases, and bidirectional traceability.

CORRECTIVE ACTION #7: The IRS disagrees with this recommendation. The Financial Institution Registration System was
developed using the most current set of integrated, automated tools available, which are still the current standard. At such time
when newer tools become available, the Financial Institution Registration System will migrate to those along with the rest of the
Information Technology organization.

IMPLEMENTATION DATE: N/A

RESPONSIBLE OFFICIAL: N/A

CORRECTIVE ACTION MONITORING PLAN: N/A




                                                                                                                       Page 36
